NATIONAL CREDIT UNION ADMINISTRATION
     OFFICE OF INSPECTOR GENERAL




          INDEPENDENT EVALUATION OF THE
      NATIONAL CREDIT UNION ADMINISTRATION'S
     COMPLIANCE WITH THE FEDERAL INFORMATION
       SECURITY MANAGEMENT ACT (FISMA) 2013

                  Report# OIG-13-12
                  November 22, 2013




                      James Hagen
                    Inspector General


                      Released by:


                   f)'   I(Jjijf_
                     W. Marvin Stith, CISA
            Sr. Information Technology Auditor




           Restricted - For Official Use Only
                                    Table of Contents

Section                                                                           Page

   I      EXECUTIVE SUMMARY                                                                  1

  II      BACKGROUND                                                                         2

  III     OBJECTIVE                                                                          3

  IV      METHODOLOGY AND SCOPE                                                              4

  V       RESULTS IN DETAIL                                                                  5

            1. NCUA needs to improve its Continuous Monitoring Program                       5

            2. NCUA needs to improve its Risk Management Program                             7

            3. NCUA needs to improve its Configuration Management Program                    7

            4. NCUA needs to improve Remote Access Controls                                  9

            5. NCUA needs to improve its Security Awareness Training                     11
               Program

            6. NCUA needs to improve Oversight of its Contractor Systems                 12

  VI       APPENDIX

           A.   NCUA Management Comments                                                 15




                                                        Restricted – For Official Use Only
                                             i
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


                                          I. EXECUTIVE SUMMARY

The Office of Inspector General (OIG) for the National Credit Union Administration
(NCUA) engaged Mitchell & Titus, LLP (Mitchell & Titus)1 to independently evaluate
NCUA’s information systems and security program and controls for compliance with the
Federal Information Security Management Act (FISMA), Title III of the E-Government
Act of 2002.

Mitchell & Titus evaluated NCUA’s security program through interviews, documentation
reviews, technical configuration reviews, and sample testing. Mitchell & Titus evaluated
NCUA against such laws, standards, and requirements as those provided through
FISMA, the E-Government Act, National Institute of Standards and Technology (NIST)
standards and guidelines, the Privacy Act, and Office of Management and Budget
(OMB) memoranda and security and privacy policies.

NCUA has worked to significantly strengthen its information security and privacy
programs during Fiscal Year (FY) 2013. We believe that many of the improvements
within the agency’s information security program are the result of the acquisition of
additional dedicated resources within the Office of the Chief Information Officer to
address information security issues. However, while NCUA continues to make
improvements in the following areas, we identified remaining issues in these areas from
last year’s FISMA review that NCUA officials need to address:

       •   Finalizing its Continuous Monitoring Policies, Procedures, and Strategy;

       •   Finalizing its Risk Management Policies and Procedures;

       •   Improving its Configuration Management Program;

       •   Improving its New Hire Security Awareness Training Program; and

       •   Improving Oversight and Management of its Contractor Systems.

In addition, we identified a new finding pertaining to NCUA’s remote access program.
We made nine recommendations in these areas, which would help NCUA continue to
improve its information security program. Furthermore, we conducted a vulnerability
assessment of NCUA’s network components this year. NCUA had very few findings
from this assessment. We will provide the results separately to NCUA for review,
response and corrective action.

We appreciate the courtesies and cooperation provided to our staff and Mitchell & Titus
staff during this audit.



1
    Mitchell & Titus, LLP is a member firm of Ernst & Young Global Limited.

                                                                              Restricted – For Official Use Only
                                                            1
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


                                             II. BACKGROUND

This section provides background information on the Federal Information Security
Management Act (FISMA) and the National Credit Union Administration (NCUA).

Federal Information Security Management Act

The President signed into law the E-Government Act (Public Law 107-347), which
includes Title III, Information Security, on December 17, 2002. The Federal Information
Security Management Act (FISMA) permanently reauthorized the framework laid out in
the Government Information Security Reform Act of 2000 (GISRA), which expired in
November 2002. FISMA continues the annual review and reporting requirements
introduced in GISRA. In addition, it includes new provisions aimed at further
strengthening the security of the Federal government’s information and information
systems, such as development of minimum standards for agency systems. In general,
FISMA:

    •   Lays out a framework for annual information technology security reviews,
        reporting, and remediation plans;

    •   Codifies existing OMB security policies, including those specified in Circular
        A-130, Management of Federal Information Resources, and Appendix III;

    •   Reiterates security responsibilities outlined in the Computer Security Act of 1987,
        Paperwork Reduction Act of 1995, and Clinger-Cohen Act of 1996; and

    •   Tasks NIST with defining required security standards and controls for Federal
        information systems.

The Department of Homeland Security (DHS) issued the FY 2013 reporting metrics,
which provide measures against which agency Chief Information Officers, Offices of
Inspector General, and Senior Agency Officials for Privacy assess the status and
compliance of agencies’ information security and privacy management programs. 2 On
November 18, 2013 OMB issued the Fiscal Year (FY) 2013 Reporting Instructions for
the Federal Information Security Management Act and Agency Privacy Management.
This document provides instructions for meeting agencies’ FY 2013 reporting
requirements under FISMA. It also includes reporting instructions on agencies’ privacy
management programs. Furthermore, it includes the requirement for Chief Information
Officers of CIO Council member agencies to submit monthly data feeds.




2
 DHS is exercising primary responsibility within the Executive Branch for the operational aspects of Federal agency
cyber security with respect to the Federal information systems that fall within FISMA under 44 U.S.C. §3543.

                                                                            Restricted – For Official Use Only
                                                         2
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


National Credit Union Administration (NCUA)

NCUA is the independent Federal agency that charters, supervises, and insures the
nation’s Federal credit unions. NCUA insures many state-chartered credit unions as
well. NCUA is funded by the credit unions it supervises and insures. NCUA's mission is
to foster the safety and soundness of Federally-insured credit unions and to better
enable the credit union community to extend credit for productive and provident
purposes to all Americans, particularly those of modest means.

NCUA strives to ensure that credit unions are empowered to make necessary business
decisions to serve the diverse needs of its members and potential members. It does
this by establishing a regulatory environment that encourages innovation, flexibility, and
a continued focus on attracting new members and improving service to existing
members.

NCUA has a full-time three-member Board (NCUA Board) consisting of a chairman and
two members. The members of the board are appointed by the President of the United
States and confirmed by the Senate. No more than two board members can be from
the same political party, and each member serves a staggered six-year term. The
NCUA Board regularly meets in open session each month, with the exception of August,
in Alexandria, Virginia.

                                              III. OBJECTIVE

The audit objective was to perform an independent evaluation of NCUA information
security and privacy management policies and procedures for compliance with FISMA
and Federal regulations and standards. We evaluated NCUA’s efforts related to:

    •   Efficiently and effectively managing its information security and privacy
        management programs;

    •   Meeting responsibilities under FISMA; and

    •   Remediating prior audit weaknesses pertaining to FISMA and other security and
        privacy weaknesses identified.

In addition, the audit was required to provide sufficient supporting evidence of the status
and effectiveness of NCUA’s information security and privacy management programs to
enable reporting by the OIG.




                                                                          Restricted – For Official Use Only
                                                        3
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


                                 IV. METHODOLOGY AND SCOPE

We evaluated NCUA’s information security and privacy management programs and
practices against such laws, standards, and requirements as those provided through
FISMA, the E-Government Act, NIST standards and guidelines, the Privacy Act, and
OMB memoranda and security and privacy policies.

During this audit, we assessed NCUA information security and privacy management
programs in the areas identified in The Department of Homeland Security’s FY 2013
Inspector General FISMA Reporting Metrics. These areas included: continuous
monitoring management, configuration management, identity and access management,
incident response and reporting, risk management, security training, POA&M, remote
access management, contingency planning, contractor systems, and security capital
planning. In addition, we conducted a vulnerability assessment of NCUA’s network
components.

We conducted our fieldwork from July 2013 through November 2013. We performed
our audit in accordance with generally accepted government auditing standards. The
standards require that we plan and perform the audit to obtain sufficient and appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




                                                                          Restricted – For Official Use Only
                                                        4
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


                                        V. RESULTS IN DETAIL

Information security and privacy program planning and management controls are
designed to provide the framework and continuing cycle of activity for managing risk,
developing security and privacy policies, assigning responsibilities, and monitoring the
adequacy of information security- and privacy-related controls. NCUA has made
significant progress in addressing last year’s reported deficiencies; however, some prior
year deficiencies remain. In addition, we identified a new deficiency in the area of
remote access that requires management's attention. Below we discuss the issues that
remain from the prior year and the remote access issue.

This year, we also conducted a vulnerability assessment of NCUA’s network
components. NCUA had very few findings from this assessment. We will provide the
results separately to NCUA for review, response, and corrective action. We note that
NCUA immediately remediated some of the issues from the vulnerability assessment.


1. NCUA needs to improve its Continuous Monitoring Program

While NCUA has continued to improve its continuous monitoring program and has many
of the components with which to build a robust program, NCUA has not finalized its
policies and procedures. In addition, it has not fully integrated the various components
of its information security program into a strategy that facilitates near real-time
monitoring and risk management. This finding includes issues in the following areas
that we address in other sections of the report:

    •   Risk management policies and procedures (see page 6);

    •   Configuration management of Macintosh computers(see page 7); and

    •   Oversight of contractor systems (see page 11).

NIST SP 800-53, Revision 3, Recommended Security Controls for Federal Information
Systems and Organizations (August 2009 with updates as of May 1, 2010), guides that
agencies should establish a continuous monitoring strategy and implement a continuous
monitoring program that includes: A configuration management process for the
information system and its constituent components; a determination of the security
impact of changes to the information system and environment of operation; ongoing
security control assessments in accordance with the organizational continuous
monitoring strategy; and reporting the security state of the information system to
appropriate organizational officials.

NIST SP 800-137, Information Security Continuous Monitoring (ISCM) for Federal
Information Systems and Organizations (September 2011), guides that Information
Security Continuous Monitoring (ISCM) supports agency risk management decisions
e.g., risk response decisions, ongoing system authorization decisions, Plans of Action

                                                                          Restricted – For Official Use Only
                                                        5
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


and Milestones (POA&M) resource and prioritization decisions, etc. It also indicates
that maintaining an up-to-date view of information security risks across an organization
requires the involvement of the entire agency, from senior leaders providing governance
and strategic vision to individuals developing, implementing, and operating individual
information systems in support of the organization’s core missions and business
functions.

NIST SP-800-37, Revision 1, Guide for Applying the Risk Management Framework to
Federal Information Systems: A Security Life Cycle Approach (February 2010), guides
that a robust continuous monitoring program requires the active involvement of
information system owners and common control providers, chief information officers,
senior information security officers, and authorizing officials. The monitoring program
allows an organization to: track the security state of an information system on a
continuous basis; and maintain the security authorization for the system over time in
highly dynamic environments of operation with changing threats, vulnerabilities,
technologies, and missions/business processes.

NCUA indicated it did not have dedicated information security resources until late in the
year to work on completing the documentation of its Continuous Monitoring policies and
procedures and to establish a comprehensive strategy that covers all components of its
continuous monitoring Program.

By improving and implementing a comprehensive continuous monitoring program,
NCUA will be more aware of and better prepared to respond to potential threats and
vulnerabilities. Ultimately, NCUA will be able to better protect the confidentiality,
integrity, and availability of its systems and data.

Recommendation: We recommend that NCUA management:

    1. Complete the documentation and implementation of comprehensive continuous
       monitoring strategies, policies and procedures in accordance with guidance
       under Information Security Continuous Monitoring, the Risk Management
       Framework and other NIST guidance.

Agency Response:

OCIO plans to complete the documentation and implementation of its Continuous
Monitoring program by December 31, 2014.

OIG Response: The OIG Concurs.




                                                                          Restricted – For Official Use Only
                                                        6
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


2. NCUA needs to improve its Risk Management Program

NCUA has made significant progress since FY 2012 in implementing a comprehensive
risk management program. Specifically, NCUA addressed most of the deficiencies in
this area from last year and has drafted its Risk Management Framework policies and
procedures in its Information System Security Policy and Procedure Handbook (System
Security Handbook). However, NCUA is still in the process of finalizing the System
Security Handbook.

The Risk Management Framework - as prescribed by NIST SP 800-37 - is the
foundation for implementing and maintaining an effective information security program.
NIST SP 800-37 provides guidelines for applying the Risk Management Framework to
federal information systems to include conducting the activities of security
categorization, security control selection and implementation, security control
assessment, information system authorization, and security control monitoring.

In response to the FY 2012 FISMA evaluation, NCUA indicated it would address all the
issues we identified with its Risk Management program by July 2013. While NCUA
addressed the majority of the issues and was able to draft its Risk Management policies
and procedures, it did not have sufficient resources to finalize the Security Handbook by
the stated completion date.

When NCUA finalizes its Risk Management policies and procedures, it will have
formally established its procedures to more adequately manage its information
systems-related risks and protect its data and information systems consistent with the
Risk Management Framework.

Recommendation: We recommend that NCUA management:

    2. Finalize its Information System Security Policy and Procedure Handbook.

Agency Response:

OCIO will finalize the current draft Information System Security Policy and Procedure
Handbook by September 30, 2014.

OIG Response: The OIG Concurs.


3. NCUA needs to improve its Configuration Management Program

While NCUA has continued to make improvements with its configuration management
program, NCUA does not have adequate configuration management policies and
procedures. Specifically:



                                                                          Restricted – For Official Use Only
                                                        7
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


    •   NCUA’s configuration management policies and procedures do not adequately
        address purpose, scope, roles and responsibilities; management commitment;
        coordination among organizational entities necessary to control and manage
        configurations; and the timely processing of remediated configurations.

    •   For part of the calendar year, NCUA did not require or enforce that comments be
        included when testing Change Control Requests (CCRs). As a result, NCUA did
        not document testing evidence for most of the 117 CCRs addressed during that
        period. NCUA implemented corrective action for this area in June 2013;
        therefore, we will not make a recommendation to address this issue.

    •   NCUA does not have a documented configuration baseline for its two Macintosh
        computers and does not have a process in place to monitor and update critical
        security patches for these computers.

NIST SP 800-53, Revision 3, guides that organizations should develop, disseminate,
and review/update a formal, documented configuration management policy that
addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance; and formal, documented
procedures to facilitate the implementation of the configuration management policy and
associated configuration management controls.

FIPS PUB 200, Minimum Security Requirements for Federal Information and
Information Systems (March 2006), requires agencies to establish and maintain
baseline configurations and inventories of organizational information systems (including
hardware, software, firmware, and documentation) throughout the respective system
development life cycles; and establish and enforce security configuration settings for
information technology products employed in organizational information systems. FIPS
PUB 200 also requires agencies to identify, report, and correct information and
information system flaws in a timely manner; provide protection from malicious code at
appropriate locations within organizational information systems; and monitor information
system security alerts and advisories and take appropriate actions in response.

NCUA indicated it did not have information security resources dedicated until late in the
year to adequately document policies and procedures and to establish a comprehensive
program that covers all of the systems and devices within the NCUA environment.

By documenting and establishing a comprehensive configuration management program,
NCUA can more effectively and efficiently monitor, manage, and patch the security
configurations for all systems and devices within the NCUA information system
environment. Ultimately, a more comprehensive program will help ensure NCUA
protects the confidentiality, integrity and availability of all the agency’s systems and
data.




                                                                          Restricted – For Official Use Only
                                                        8
Report# OIG- 13- 12: Independent Evaluation of the National Credit Union Administration's Compliance with the
Federal Information Security Management Act (FISMA) 20 13


Recommendations: We recommend that NCUA management:

    3. Document a comprehensive configuration management program that includes
       policy and procedures for monitoring, managing, and patching security
       configurations for all systems and devices.

        Agency Response:

        OCIO will finalize documentation of its Configuration Management program by
        September 30, 2014.

    4. Establish and implement a baseline configuration for the Macintosh computer(s).

        Agency Response:

        OCIO plans to document its Macintosh computer baseline by
        September 30, 2014.

OIG Response: The OIG Concurs with management's responses .


4. NCUA needs to improve Remote Access Controls




                                                                          Restricted - For Official Use Only
                                                        9
Report# OIG- 13- 12: Independent Evaluation of the National Credit Union Administration's Compliance with the
Federal Information Security Management Act (FISMA) 20 13




Recommendations: We recommend that NCUA management:




        Agency Response:




        Agency Response:




OIG Response: The OIG Concurs with management's responses.




                                                                          Restricted - For Official Use Only
                                                       10
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


5. NCUA needs to improve its Security Awareness Training Program

We determined NCUA’s procedures for providing security awareness training to new
hires are not adequate. Specifically, NCUA:

    •   Has not established a specific timeframe within which new hires must complete
        the agency’s initial security awareness training.

    •   Does not retain evidence indicating that new hires have completed their initial
        security awareness training.

    •   Does not have documented procedures to monitor and review the timely
        completion of security awareness training by new hires and to enforce sanctions
        for not completing the training.

NIST SP 800-53 guides that organizations should:

    •   Provide basic security awareness training to all information system users
        (including managers, senior executives, and contractors) as part of initial training
        for new users, when required by system changes, and periodically thereafter;

    •   Document and monitor individual information system security training activities
        including basic security awareness training; and

    •   Retain individual training records for a specific period of time as defined by the
        organization.

NIST SP 800-16, Information Technology Security Training Requirements: A Role- and
Performance-Based Model (April 1998), requires training: for new employees within 60
days of hire.

During the FY 2012 FISMA review, NCUA indicated it did not have the dedicated
resources until late in the year to develop, document, implement and monitor a robust
security awareness training program that meets NIST guidance and requirements. This
year NCUA indicated it just recently assigned the dedicated resources to address its
security awareness training program.

By implementing a current and effective security awareness training program, NCUA
management can help ensure all personnel receive the required security training and in
a timely manner. Individuals who receive adequate and current security training and
who are aware of their security responsibilities will be better prepared to perform their
assigned duties in the most secure manner. Ultimately, this helps protect the
confidentially, availability, and integrity of NCUA systems and data.




                                                                          Restricted – For Official Use Only
                                                       11
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


Recommendation: We recommend that NCUA:

        7. Develop and document a new hire security awareness training program that
           provides for:

             a. Monitoring, tracking, and reviewing the timely completion of new hire
                training; and

             b. Enforcing sanctions for not completing security awareness training within
                the required time-frame.

Agency Response:

OCIO will update the new hire training process and procedures and address
enforcement of sanctions by March 31, 2014.

OIG Response: The OIG Concurs with management’s response.


6. NCUA needs to improve Oversight of its Contractor Systems

NCUA has not fully implemented a formal contractor system oversight management
process in alignment with current federal guidelines. Specifically:

    •   Current NCUA policies and procedures do not provide sufficient guidance in
        regards to how NCUA should monitor and assess information security
        requirements for its contractor systems. As a result, NCUA does not have a
        formal process in place:

             o For maintaining sufficient assurance that security controls of contractor
               provided or hosted systems and services are effectively implemented and
               comply with federal and NCUA guidelines;

             o To ensure it obtains the System Security Plans (SSPs) of contractor
               systems. Specifically, NCUA does not have the SSPs for any of its eight
               (8) contractor systems; and

             o For classifying contractor systems as FISMA-reportable systems and
               cloud systems within its system inventory.

    •   For the six of its eight (8) contractor systems, NCUA either (a) did not receive the
        Memorandums of Understanding or Interconnection Security Agreements
        (MOU/ISA) necessary to review and monitor the service agreement; or (b) the




                                                                          Restricted – For Official Use Only
                                                       12
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


        SOC 1 (Service Organizations Control) reports 5 NCUA received did not include
        adequate security information as indicated by NIST guidance:

    •   Not all the NCUA functional owners of the contractor systems are identified.

NIST SP 800-53 guides that organizations develop and maintain an inventory of its
information systems. In addition, NIST SP 800-53 guides that organizations authorize
connections from their information systems to other information systems outside of the
authorization boundary through the use of Interconnection Security Agreements, and
document - for each connection - the interface characteristics, security requirements
and the nature of the information communicated; and monitor the interconnections on
an ongoing basis to verify enforcement of security requirements.

OCIO is centrally responsible for the security of all systems operating in the NCUA
environment. However, functional system owners - who are responsible for obtaining
and maintaining the security documentation for contractor systems - do not always
consult with or seek approval from OCIO regarding appropriate security documentation.
Therefore, NCUA management has not been able to effectively monitor all contractor
systems and ensure compliance of these systems with Federal and NCUA information
security requirements.

By centrally managing its contractor oversight process, NCUA can have better
assurance that contractor systems operating in or connected to the NCUA systems
environment have the same information security measures implemented as NCUA’s
systems. As a result, NCUA could better ensure that its network is protected against
threats and better ensure the confidentiality, integrity, and availability of NCUA data and
information systems.

Recommendations: We recommend that NCUA:

    8. Designate OCIO as centrally responsible for managing and overseeing the
       security requirements for NCUA’s contractor systems.

    Agency Response:

    This recommendation requires coordination between multiple offices to recognize
    OCIO as the party responsible for overseeing security requirements for contractor
    systems. OCIO will work with relevant offices to update procurement procedures by
    September 30, 2014.


    9. Develop a formal process for maintaining sufficient assurance that security
       controls for contractor systems are effectively implemented, to include:

5
 SOC 1 reports effectively replaced SAS 70 reports as of June 15, 2011. The reports provide a means of reporting
on the system of internal control for purposes of complying with internal control over financial reporting.

                                                                          Restricted – For Official Use Only
                                                       13
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


             a. A centrally maintained and monitored inventory of contractor systems;

             b. Periodic review of the system inventory (at least annually) to determine
                that all systems have been appropriately categorized as agency or
                contractor systems as well as cloud or non-cloud systems;

             c. A centrally maintained and monitored inventory of system interconnections
                for all NCUA systems that is regularly reviewed (at least annually) for
                accuracy and that is supported by valid and signed ISAs or MOUs; and

             d. A central repository of applicable valid, approved, and signed security
                documentation (e.g., System Security Plans, Interconnection Security
                Agreements, etc.) for each of the contractor systems.

        Agency Response:

        OCIO will update its process for Contractor Systems to address items discussed
        in the recommendation by September 30, 2014.

OIG Response: The OIG Concurs with management’s comments.




                                                                          Restricted – For Official Use Only
                                                       14
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013


Appendix A: NCUA Management Comments



             {~
             •
              -·~\---- National Credit Union Administration - - - - -- -
                                    >
              o...,'~y, ",.,.,. 'l."o




             SENT BY E-MAIL

             TO:                        Inspector General James Hagen

             FROM:                      Executive Director Mark   Treichel~(__
             SUB.J:                     Independent Evaluation ofNCUA's Compliance with FISMA in 2013

             DATE:                      November 20, 2013

             This memorandum responds to your request for comment on the Independent Evaluation of the
             NCUA 's Compliance with the Federal Information Security Management Act (FISMA) in 2013.
             Thank you for the oppottunity to review and comment on your report's findings and
             recommendations. We concur with the recommendations. Below is an outline of our plan of
             action.

             NCUA made significant progress in strengthening its infonnation security and privacy programs
             during 2013. OCIO hired an Information Security Officer (ISO) and assigned dedicated
             information technology (IT) resources to assist in standing up a comprehensive IT Security
             program in the third quarter of20 13.

             OCIO is currently perfom1ing the foundational activities required to finalize the development of
             policies and procedures that will establish the framework ofthe program going forward. Once
             complete, OCJO will transition its resources to supporting activities to achieve its target state of a
             more sustainable infonnation security program.

             OIG Report Recommendation #1
             Complete the documentation and implementation of comprehensive continuous monitoring
             strategies, policies and procedures in accordance with guidance under Information Security
             Continuous Monitoring, the Risk Management Framework and other NIST guidance.

             Management Response: OCIO plans to complete the documentation and implementation of its
             Continuous Monitoring program by December 3 1,2014.

             OJG Report Recommendation #2
             Finalize its Information System Security Policy and Procedure Handbook.

             Management Response: OCTO will finalize the current draft lnfonnation System Security Policy
             and Procedure Handbook by September 30,2014.




                   1 775 Duke St r eet - Alexandria , VA 22314 - 3428 - 703 - 518 - 6300




                                                                                     Restricted – For Official Use Only
                                                                     15
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013




             Page 2



              OIG Report Recommendation #3
             Document a comprehensive configuration management program that includes policy and
             procedures for monitoring, managing, and patching security configurations for all systems and
             devices.

             Management Response: OCIO will finalize documentation of its Configuration Management
             program by September 30,2014.

             OIG Report Recommendation #4
              Establish and implement a baseline configuration for the Macintosh computer(s).

             Management Response: OCJO plans to document its Macintosh computer baseline by
             September 30, 2014.




              Management Response:    111..111111111111111111111111111111111111111
             OIG Report Recommendation #7
             Develop and document a new hire security awareness training program that provides for:
                 a. Monitoring, tracking, and reviewing the timely completion of new hire training, and
                 b. Enforcing sanctions for not completing security awareness training within the required
                     time-frame.

             Management Response: OCIO will update the new hire training process and procedures and
             address enforcement of sanctions by March 31, 2014.

             OIG Report Recommendation #8
             Designate OCIO as centrally responsible for managing and overseeing the security requirements
             for NCUA's contractor systems.




                                                                               Restricted – For Official Use Only
                                                           16
Report # OIG-13-12: Independent Evaluation of the National Credit Union Administration’s Compliance with the
Federal Information Security Management Act (FISMA) 2013




             Page 3


             Management Response: This recommendation requires coordination between multiple offices to
             recognize OCTO as the party responsible for overseeing security requirements for contractor
             systems. OCIO will work with relevant offices to update procurement procedures by September
             30,2014.

             OIG Report Recommendation #9
             Develop a formal process for maintaining sufficient assurance that security controls for
             contractor systems are effectively implemented, to include:
                   a. A centrally maintained and monitored inventory of contractor systems.
                   b. Periodic review of the system inventory (at least annually) to determine that all systems
                      have been appropriately categorized as agency or contractor systems as well as cloud or
                      non-cloud systems.
                   c. A centrally maintained and monitored inventory of system interconnections for all
                      NCUA systems that is regularly reviewed (at least annually) for accuracy and that is
                      supported by valid and signed ISAs or MOUs.
                   d. A central repository of applicable valid, approved, and signed security documentation
                      (e.g., System Security Plans, Interconnection Security Agreements, etc.) for each of the
                      contractor systems.

             Management Response: OCIO will update its process for Contractor Systems to address items
             discussed in the recommendation by September 30,2014.

             If you have any questions, please do not hesitate to contact my office.

             cc:    DED Kutchey




                                                                                 Restricted – For Official Use Only
                                                            17
